<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MAY 11, 2005

                                       U.S. Senate,
            Subcommittee of the Committee on Appropriation,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF BRUCE R. JAMES, PUBLIC PRINTER

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order.
    This morning, we meet to take testimony from three 
legislative branch agencies, the Government Printing Office 
(GPO), the Congressional Budget Office (CBO), and the Office of 
Compliance. I want to welcome all of our witnesses.
    We will first hear from Mr. Bruce James, Public Printer, 
who will be presenting GPO's budget request for $131 million. 
GPO's budget request is an increase of $11 million over the 
current year, or a 9 percent increase.
    Mr. James, you've made great strides in the past few years 
in improving GPO's operations, including closing the retail 
stores which had been in the red for some time, downsizing the 
workforce to better meet GPO's needs, developing a strategic 
plan, reorganizing the agency to better meet customer needs, 
and seeking opportunities for relocating GPO's facility.
    I would also note that GPO's financial situation has 
improved considerably, generating net income in 2004 for the 
first time since 1999. We look forward to reviewing the status 
of your efforts to make further improvements to modernize the 
Government Printing Office.
    Following GPO, we will hear from Dr. Douglas Holtz-Eakin, 
who is accompanied by his Deputy, Dr. Elizabeth Robinson. The 
CBO's budget request of $36 million is a modest 3.5 percent 
increase over the current year to maintain current operations.
    And then, finally, we will take testimony from the 
Executive Director of the Office of Compliance, Bill Thompson, 
and the Chair of the Board of the Office of Compliance, Susan 
Robfogel. The office is requesting a budget of $2.6 million for 
fiscal year 2006. While this is a 9 percent increase, we 
understand you believe additional funds over the requested 
level may be needed to fully meet your mandate.
    I will turn to my ranking member when he arrives, and in 
the meantime, we will go ahead and take testimony from our 
witnesses. We're going to start with Mr. James, Government 
Printing Office. I appreciate everybody's timeliness this 
morning, because I do like to get started on time, so Mr. 
James, you're up.

                    OPENING STATEMENT OF BRUCE JAMES

    Mr. James. Mr. Chairman, I appreciate the opportunity to 
address you this morning, I have a prepared statement for the 
record, if you'll accept that.
    Senator Allard. We will make that a part of the record.
    Mr. James. Thank you. I'd like to make a few comments. 
First of all, you may observe the room is filled with people, I 
think GPO has more people here this morning than you do, and 
you might assume that I have all these wonderful people here in 
case you ask any tough questions and I need answers, but that's 
not really the reason. This is an opportunity that I think is 
important for our people to see first hand what is on your 
mind, and what it is that we need to be addressing.
    Second, I have with me this morning a couple of our younger 
staff. We put a great deal of effort on recruiting from college 
campuses the best and brightest graduates to come in and join 
our organization, and with me this morning I have one of them, 
Ron Selby, who is a graduate of Cal Poly, and who's working in 
our digital media group, establishing new standards for 
Government information.
    And I also have with me one of our interns, an intern from 
Howard, here in town, Lonnie Stibey, and it's our hope that we 
can attract her when she graduates from school into the 
organization, too.
    I realize, Mr. Chairman, that you're new in this position, 
and we've not had a chance to talk about some of the background 
of the GPO, and if I may, I'd like to use my time here to talk 
about the big picture here for a minute, because I think you'll 
find this useful.
    We're in an interesting situation. We've had a disruptive 
technology thrust upon us, and that disruptive technology is 
the Internet, which is changing forever the way people will do 
business in this country. It's changing the way information's 
going to be handled, and it's changing the ability of Americans 
to access the work of their Government. As you know, the 
Government Printing Office goes back many years. When I was 
sworn into office, I was fortunate to have Justice Kennedy 
swear me in, and he gave me a little 15 minute talk. And during 
that period of time, he didn't talk once about making printing 
presses run faster. What he talked about was my responsibility 
in helping to preserve our democracy, by making certain that 
all Americans have access to information about the work of 
their Government.
    And so, in the past 2 years--and I've been there a little 
over 2 years--what we've been looking at is what are the true 
core requirements of the GPO, not just today, but what are 
those requirements going to be into the future. And we've done 
this by talking with all of the groups involved with the GPO, 
from Congress to librarians to printers, to our customers in 
the executive branch, to get a feeling from them about how 
their requirements are changing and what they're going to need 
in the future.
    And we also talked with universities to see what they were 
working on in their research laboratories, we talked with our 
sister agencies that are involved with information, like the 
Library of Congress, and the Archives of the United States. We 
visited with the major technology companies to see what they're 
working on in the future, and from all of this a pattern 
emerged. And we took last year to come together, and I took 
about 200 people at GPO working in small groups on the 
development of a strategic vision for the agency, published 
that vision in December of last year, and as I say to our 
folks, this is not the final blueprint, this is the music, and 
it's up to them to now fill in the words, but now we've got 
everybody on the same page and I'm pleased to say that we've 
gotten wide acceptance of the strategic plan, or our strategic 
vision, from the various groups, again, that we do business 
with.
    The next thing that we've looked at doing here is to try to 
decide where the funds are going to come from that are going to 
be required to transform the GPO from an analog, print-centric 
organization to a digital information organization, which is 
what's needed in the future. And there will be, literally, 
hundreds of millions of dollars involved in the cost of doing 
this, and so we've looked at this and thought about this as if 
it was business--how would we look at it? Well, we would have 
two choices--perhaps more than two--but we'd have two distinct 
choices.
    One is to turn to the capital markets to raise the money, 
and the other would be doing this from internally generated 
funds. And, in the case of a Government agency, of course, 
Congress is the capital market, we'd have to come to Congress 
for the funds that are necessary to make the investment, and 
continue to refresh the investment, and it's been very clear to 
me in the year, year and a half that I've looked at this, that 
Congress has priorities that are probably higher than the GPO, 
and let me just put it that way, and so I just don't think it's 
realistic to come to you and ask you for hundreds of millions 
of dollars.
    Instead we've looked at this and tried to determine how we 
could do this using our own assets, and I think we've come up 
with a very ingenious plan. It revolves around the facilities 
that we have on North Capitol Street, which are historic, they 
go back to the 1860's. We've acquired in that period of time 
about 80 parcels of land that we've accumulated and built four 
buildings altogether on that land. However, those buildings are 
now obsolete for the purpose that we have today, they're 
totally obsolete. They're very expensive to maintain; we 
estimate that we're spending as much as $35 million a year to 
maintain these obsolete buildings that we wouldn't have to 
spend if we were in proper facilities, properly located, and 
properly equipped.
    So, what we've done is, because we're five blocks from the 
U.S. Capitol, we realize that this land, these facilities could 
be very valuable to the Government in the future. So, we've 
looked at the possibility of doing a deal with the private 
development community wherein we would lease the land in 
exchange for payment coming from them. The payment, in turn, 
would be used to build and equip a new facility, and it also 
would be a continuing cash stream to us to be able to refresh 
our technology without having to make a burden on taxpayers.
    We've been at this for some time. We've engaged one of the 
preeminent real estate advisory firms in the country to help us 
with this, and we've been consulting with Members and staffs in 
both the Senate and the House, and I think we are coming right 
down the road. I hope to be able to institute that this year. 
It is the single-most important thing in front of us.
    The second thing that we're doing that is absolutely 
critical to the future of Government information is the 
development of what we're calling the ``Future Digital 
System,'' sometimes it's referred to as the ``Digital Content 
Management System''. It is a single system that is based on 
what's going to be required to ingest Government documents that 
are created in digital form, and to manage that information 
through a life cycle, and the life cycle in the case of the 
United States of America is in perpetuity. And in trying to get 
our minds around what that is, we realize that's a long time. 
And I guess you, philosophically, can argue whether it's 
forever or not, but in perpetuity's a long time.
    We've had that charge since 1813, of making certain that 
the documents created by the United States Government are not 
only available to the public, but that we keep them for future 
generations. So, we're developing a large system. Again, we're 
looking how to do this with internally generated funds. I 
realize I can't just come to you and ask you to again put tens 
of millions of dollars into this, and we think we have a way of 
doing this and will be coming back to you in the next week or 
two to talk about it. And that is, that we have a revolving 
fund, and as the appropriations come each year--the two major 
appropriations we get, one is for congressional printing and 
binding, the other is for dissemination through the Federal 
depository library program and through the Internet--we have 
accumulated some surpluses from past years. I say they became 
surpluses only because we've become more efficient. That money 
was set aside to do work in the future, going back and taking 
care of documents that were created by Congress and agencies 
that would only be printed in future years, and we've just 
gotten more efficient. And so, we see an opportunity to use 
those funds to support the building of a future digital system. 
And, again, I think it's an ingenious way of using that money, 
it's a terrific investment. And so we'll be coming back to you, 
Mr. Chairman, to talk about that in the next week or 2.

                           PREPARED STATEMENT

    So, those are the major issues that we have here, I think 
that we have proven that we can get our arms around this large 
agency and sort of tame it, and bring it under control. We 
introduced, as you pointed out, a number of practices in the 
agency that now allow us to be able to predict what will 
happen, and measure what we do, and make adjustments as 
necessary to be prudent managers of the enterprise.
    Mr. Chairman, those are my opening remarks, and I will be 
pleased to answer any questions you may have.
    [The statement follows:]
                  Prepared Statement of Bruce R. James
    Mr. Chairman and Members of the Subcommittee Legislative Branch 
Appropriations: It is an honor to be here today to present the 
appropriations request of the U.S. Government Printing Office (GPO) for 
fiscal year 2006.
                              2004 results
    I'm pleased to report that the GPO made significant progress during 
fiscal year 2004--the first full year of our efforts to transform this 
venerable agency from a 19th century printing factory into a 21st 
century digital information factory.
    We restored the GPO's finances to a positive basis for the first 
time in 5 years, broadened the application of best practices throughout 
our operations, prepared for the release of new product and service 
options, and set in motion our plan to relocate to a modern facility. 
With the release of our Strategic Vision for the 21st Century in 
December, we set the GPO on a new course for the future.
    Underscoring our progress are the results of the GAO's widely 
anticipated study of Federal printing and information dissemination 
activities, Government Printing Office: Actions to Strengthen and 
Sustain GPO's Transformation, which was requested originally by this 
committee in 2002 and released in June, 2004. The study validates our 
efforts to redirect the GPO's focus toward information dissemination in 
the digital era.
    We generated consolidated net income in 2004 for the first time 
since fiscal year 1999, reversing a trend that had depleted our 
financial reserves and jeopardized our ability to finance needed 
technological modernization. We also recorded a significant positive 
adjustment to our long-term worker's compensation liability under FECA, 
which further strengthened our finances.
    We implemented plans to achieve savings and improve service 
provision by outsourcing financial and IT support operations. We closed 
our final ailing regional printing plant. A second retirement incentive 
program, authorized by the Joint Committee on Printing, resulted in an 
additional workforce reduction of 250 positions, yielding a cumulative 
workforce reduction of approximately 550 positions, or nearly 20 
percent, since January 2003.
    We established an office to devise new product and service options 
for Congress and Federal agencies. Security documents are gaining 
increased attention throughout the Government--from biometric passports 
to requirements for new security document standards contained in the 
Intelligence Reform and Terrorism Prevention Act of 2004--and we view 
this as a major new opportunity for the application of the GPO's expert 
capabilities. We began reviewing options for developing GPO facilities 
outside of Washington, DC, to enhance security and continuity of 
operations.
    During 2004 we began planning for the development of a Digital 
Content Management System that will allow us to obtain, preserve, and 
provide access to information produced by all three branches of 
Government, and to material currently in the custody of the GPO and 
Federal depository libraries nationwide. The Digital Content Management 
System will enable the GPO's customers to electronically access the 
content they want and allow us to deliver it in the formats they 
desire.
    As we reported to this Committee last year, a key to the GPO's 
future will be relocating from our aging, oversized quarters to modern, 
efficient facilities scaled and equipped to meet our needs in the 21st 
century. Rather than burden the taxpayers with this project, we're 
investigating opportunities to finance it through the redevelopment of 
our current structures. In September 2004, following approval from the 
Joint Committee on Printing, we selected an expert real estate advisory 
firm to help guide us in this process, which we expect to culminate by 
late 2007. We will seek legislative authority for this project and are 
working on this with our oversight committees.
    Because of the relentless scope and pace of changes in information 
technology, the way the Government keeps America informed has been 
forever altered. The GPO's historic mission places us at the very 
epicenter of this change. We can no longer afford simply to react to 
change in information dissemination. Instead, we have to lead it. Late 
in the year we released our Strategic Vision of the 21st Century, which 
positions us to transform the GPO into a 21st century digital 
information service provider.
    The time has come for the GPO to fully assume its responsibilities 
as the Government's primary resource for gathering, cataloging, 
producing, providing, and preserving its published information in all 
forms. This is the GPO's historic mission, tracing its beginning to 
1813, when the antecedents of Federal Depository Library Program was 
first enacted. But to fully assume it, we must embrace our historic 
mission using the technology of the 21st century. Relying on the 
creative energy of our dedicated workforce, and based on the 
achievements we've logged over the past two years, we're well-
positioned to begin making our strategic vision of the GPO a reality.
                        fiscal year 2006 request
    Our fiscal year 2006 request is designed to provide for the: 
continuation of our congressional printing and binding operations at 
required levels; continuation of our information dissemination services 
at required levels; and investment in retraining our workforce to meet 
the demands of technology.
    Our fiscal year 2006 request is consistent with the financial goal 
included in our Strategic Vision, which is to provide the resources 
required to accomplish our vision using the GPO's own operations and 
assets as well as normal appropriations, with the exception of a 
onetime infusion of workforce development and training funds.
                        continuation of services
    For the Congressional Printing and Binding Appropriation, which 
covers printing and information product services for Congress, we are 
requesting $92.3 million. This is a modest rise over the level approved 
by Congress for fiscal year 2005, based on anticipated direct cost 
increases resulting primarily from contractual wage agreements and 
projected changes in congressional workload consistent with second 
session requirements.
    For the Salaries and Expenses Appropriation of the Superintendent 
of Documents, we are requesting $33.8 million, also a modest rise over 
the fiscal year 2005 approved level. This appropriation provides for 
the distribution of Government publications in both tangible and online 
formats to Federal depository and international exchange libraries and 
other recipients authorized by law, as well as the cataloging and 
indexing of Government publications. Today, our online information 
service, GPO Access (www.gpoaccess.gov), makes available free of charge 
more than a quarter of a million titles from all three branches of the 
Federal Government, and is used by the public to retrieve more than 37 
million documents every month.
    Since 1996, consistent with directions from Congress, the GPO has 
been transitioning the Federal Depository Library Program (FDLP) to a 
predominately electronic basis in full cooperation and consultation 
with the library community. This initiative has resulted in an 
exponential expansion of effective public access to Government 
information without substantial increases in funding. At the same time, 
we have continued to provide public access to information in tangible 
formats in accordance with policy established by the Superintendent of 
Documents.
    We value our partnership with Federal depository libraries and 
share their commitment to providing no-fee permanent public access to a 
comprehensive body of official Federal Government information, in print 
and electronic form. We will continue to expand electronic information 
offerings through the FDLP and will continue to provide for 
dissemination of tangible products to depository libraries in 
accordance with existing policy, in full consultation with the library 
community and our oversight committees in Congress.
                     investment in the gpo's future
    For our revolving fund, we are requesting $5 million for 
transitioning the GPO's workforce from traditional manufacturing and 
distribution skills to the capabilities required for managing the life-
cycle of Government information products. These funds will be used to 
define the workforce needed in the immediate future, assess the skills 
of current employees, identify the gaps, and then design and deliver 
targeted, just-in-time training to close those gaps.
    Our Strategic Vision identifies unexpended balances of prior year 
appropriations that have not yet expired as a potential source of funds 
for investment in our signature initiative, the Digital Content 
Management System. This system will serve both the FDLP as well as 
ingest information products produced by Congress for public 
dissemination. Under the language of our appropriations accounts, 
unobligated or unexpended balances in these accounts or accounts for 
similar purposes for preceding fiscal years may be transferred to the 
GPO revolving fund for carrying out the purposes of these 
appropriations subject to the approval of the House and Senate 
Appropriations Committees. The GPO used this legislative provision once 
before, in 2001, with the Committees' approval. For this appropriations 
cycle, and with the approval of the Joint Committee on Printing, we 
will seek the Committees' approval to transfer currently available 
funds to the revolving fund where they would remain available until 
expended in the development of the Digital Content Management System. 
This funding would also be available to liquidate any shortfalls in 
these appropriated accounts that may occur through fiscal year 2006.
    Mr. Chairman and Members of the Appropriations Committee, thank you 
for all the support you have shown for our efforts to bring 
transformation to the GPO. This past year has been one of unparalleled 
accomplishment at the GPO. With your support we can continue that 
record of achievement. I look forward to working with you in your 
review and consideration of our request.

        REDEVELOPMENT OF GOVERNMENT PRINTING OFFICE HEADQUARTERS

    Senator Allard. Mr. James, you have made tremendous strides 
in your efforts to modernize GPO. One of the biggest obstacles 
you face is your current facility on North Capitol Street--4 
buildings and 8.5 acres--far more than GPO needs and costing 
$35 million in operations and maintenance each year. What are 
the options you are exploring to finance a new GPO facility?
    Mr. James. The land that we have at North Capitol and H 
Streets is one of the most valuable pieces of real estate in 
the United States for potential development, and it's because 
of its location, one block from Union Station, and five blocks 
from the Capitol. It's clear that the District government would 
be opposed to tearing down the historic buildings that we have, 
and so we're going to have to preserve those historic 
buildings, however we end up doing this, but we have vacant 
land to go with these historic buildings, and my guess is that 
we'll end up with a mix of offices, retail, residential and 
perhaps, even, a hotel. And from our conversations with the 
District government, they're quite excited about this, because 
this fits into their general development scheme for the area 
quite well. This can be the lynchpin for them in really helping 
to develop that part of the city.
    So, what we've been doing with The Staubach Company, our 
real estate advisory firm, is looking at what would be the 
highest and best use of that land, not just for us, but for the 
city too, what are we going to end up with? Because what we 
want to do is go out to developers and we want to do this on a 
competitive process. We'll probably go through two stages--a 
request for information and a request for proposal. But I don't 
want to go out blind. I want to go out knowing what to expect 
back, so I have an ability to evaluate what we're hearing.
    Now, we've also been working with two other organizations 
that have more real estate experience than we do, and that's 
the General Services Administration, and the Architect of the 
Capitol, both of whom have been very generous in sharing their 
people with us as we set this process up. So, at the end of the 
day, we would expect, through a competitive process, to get the 
highest and best use of the property, and do it on a basis 
where we, the Government, retain the ownership, at least of the 
contiguous parcels on the west side of North Capitol, and at 
some period in the future it reverts back to the Government, so 
that we have a second bite at the apple.
    Senator Allard. According to your strategic plan, GPO 
``expects the terms of any redevelopment to be settled by mid-
2005.'' Are you on schedule?
    Mr. James. Yes, sir. We are. We have been working 
diligently in the last year on this, the final presentation 
from Staubach is due to be made to me next Monday, we have 
identified the issues that we need to work with Congress on, 
we've had preliminary discussions with Congress on this, and 
we'll be back in the next week or 2 asking permission to move 
forward.
    Senator Allard. Is legislation required to implement your 
plan?
    Mr. James. Mr. Chairman, we've looked very carefully at 
this, and under the law, I can probably do quite a bit on my 
own, obviously we wouldn't move without the concurrence of 
Congress, but it looks like we are going to need legislation in 
terms of the ability to keep the proceeds in redevelopment, but 
if we don't have that it looks to us like the proceeds would go 
back to the General Treasury.
    Senator Allard. Have you shared the plan with the 
appropriate committees of Congress?
    Mr. James. We have shared the development of that plan, 
we're getting ready to present the entire plan.
    Senator Allard. When will the Congress be presented with a 
plan?
    Mr. James. Within a week or 2.
    Senator Allard. Is your assumption that a new GPO building 
will be operational in fiscal year 2007 realistic?
    Mr. James. Well, my target is to be in a new facility--
which is separate and distinct from the redevelopment of the 
existing facilities, they can't begin to redevelop the existing 
facilities until we get out--so our goal is to be out and into 
a new facility by December 2007. Now, I caution, that's a very 
aggressive schedule, but I'm used to setting aggressive 
schedules, and trying to get there. It is an aggressive 
schedule.
    Senator Allard. Will any appropriations be required for 
this venture?
    Mr. James. Well, we've had some discussions with your staff 
about the future of appropriations, because we realize this 
isn't just a 1-year deal here, and the economics look to us 
like, quite frankly, we will be able to reduce our 
appropriations requests in the future, not ask for more money, 
and the reason I say that is, so much of what you appropriate 
to use, particularly for congressional printing and binding, 
encompasses the overhead that we have for maintaining this 
ancient facility. And when that overhead is reduced, we should 
be able to produce each page of a document for less money, 
therefore reducing, overall, the costs to the Government.

                          FUTURE COST SAVINGS

    Senator Allard. GPO's budget justification indicates that 
once you have a new plant and equipment, you expect to be able 
to reduce the congressional printing and binding appropriation 
by 30 percent. What is the basis of this projection?
    Mr. James. We estimate that we will be able, on the 
congressional printing and binding portion of the 
appropriation, we think by 2009, our request will be about 30 
percent less than it would be if we maintained ourselves in the 
same building.
    Senator Allard. Where will the savings come from?
    Mr. James. You know, I could probably best answer that 
question by taking you for a 10 minute walk through our 
facility. It was designed and built in the late 19th century 
and early 20th century, and we're maintaining nearly 100 
elevators that are in some cases 100 years old. We're 
maintaining an ancient facility that, at one time, housed 8,500 
people, and today we have less than 2,500 people in the 
facility. As we embrace technology, and do things more 
efficiently, we need fewer people. So, just by reducing those 
costs, we will save about $35 million a year, just from that 
alone.

                       SCHEDULE FOR NEW BUILDING

    Senator Allard. Is your assumption that a new GPO building 
will be operational in 2007 realistic?
    Mr. James. Mr. Chairman, I'm a novice at this, I've only 
been in Washington for 2 years, and of course, everybody tells 
me how slowly things move, and I realize that I don't have the 
same control on the project that I would if this were in the 
private sector, but I see no obstacles at this point that would 
keep us from meeting that aggressive schedule. There may be 
something that comes up, certainly Congress could slow us down 
and there would be other things that could slow us down, too, 
but I think this is a doable schedule, and I think it's 
realistic. It's very important that we have dates like that in 
mind for my planners, the folks that are planning what the new 
operation will look like, because as you might imagine, when we 
move to a new facility, this will be the start of a new 
culture. We will move from being print-centric with large--what 
I call, heavy metal--printing presses, and instead we'll move 
into digital production lines that are very efficient.
    I had a conversation the other day with the Clerk of the 
House about this, about the Congressional Record. I was talking 
to Mr. Trandahl about it, and I said, ``For instance, we no 
longer would have to think about giving each Member a complete 
Record each day. We could, instead, do a customized Record 
based on what their interests are, what their committees are, 
and just custom-make exactly what they need, because the entire 
Record's on the Internet, you can look it up on GPO Access or 
Thomas, so instead, we could save paper, we could save time, we 
could save energy, and make it much more efficient.'' So, we're 
looking at building a platform that will be far more flexible 
for our customers in the future.

                   DIGITAL CONTENT MANAGEMENT SYSTEM

    Senator Allard. According to your statement, GPO will be 
seeking congressional approval this year to reprogram $20 
million from previously appropriated funds to develop a new 
integrated digital content management system. Could you explain 
what this is and why it is necessary?
    Mr. James. Well, it's necessary because technology has 
changed. Twelve years ago, the Government didn't have any 
documents on the Internet. Last month, we estimate that 50 
percent of all Government documents were born digital, to never 
be printed by the Government. This doesn't relieve the 
Government of the responsibility of having that information 
available to citizens, and our web portal, GPO Access, is the 
Government's principle point for citizens to enter and look at 
the documents of Government. We have about 256,000 documents 
available for citizens on GPO Access, we have about 1 million 
downloads a day of Government documents. This didn't exist 10 
years ago. So, we need to have a system that's robust enough to 
handle that--and if I may add, if I may just extend that remark 
slightly--there are profound changes coming down the road.
    The Internet that we have today is nothing like what the 
Internet 5 years from now is going to look like. The Internet 5 
years from now will be running at 20,000 times the speed of 
today's Internet. The way the Government gathers information 
and the way we present information is going to change. We're 
going to make far heavier use of video and audio, and what we 
need to do is prepare the way, so that when you're ready to 
introduce new ways of doing things, we have the support 
mechanism in place.

                       LEASE OF CURRENT FACILITY

    Senator Allard. If you're planning to lease the current 
facility, are you counting on whoever leases it to maintain the 
buildings, or will GPO need to do that, and is GPO going to 
have a surplus out of this lease arrangement in order to pay 
for the other building?
    Mr. James. We won't be doing the maintenance, Mr. Chairman. 
The developer that we pick together will be doing this.
    Senator Allard. And the Government will continue to own 
those buildings?
    Mr. James. Yes, sir.
    Senator Allard. And the land, too?
    Mr. James. Yes, sir.
    Senator Allard. And, have you got some figures on what it's 
going to cost to maintain and operate the lease site?
    Mr. James. We're not going to know that until we go out for 
proposals from developers. And again, this is not our money, 
this is not taxpayer's money that we're putting into this 
development project. This will be capital the developer raises 
and brings to the project. The developer's the one who will be 
responsible for building anything, changing anything, with his 
own funds, and for paying the cost of maintaining it, paying 
the costs of leasing it, collecting the rents, doing all the 
things that would normally be done. We simply sit there with a 
lease that is guaranteed, of course, by the fact that we own 
the land, and the buildings, we own those, so that's our 
guarantee, and we will get then, each year, or each month or 
however the arrangement is made, we will get a sum of money 
paid to us.
    Senator Allard. You had a number of developers who were 
interested in this project, is that right?
    Mr. James. I believe we have gone through the steps of 
making certain that the world's premier developers are aware of 
this. We believe that we will have great interest in this 
project, from the best developers in the world.
    Senator Allard. At this point in time, how would you 
characterize the interest in this venture? High, medium or low?
    Mr. James. Very high.

                          DIGITIZATION EFFORT

    Senator Allard. Okay. One of the efforts you had was to 
digitize and authenticate all known Federal documents. How far 
along are you in that goal?
    Mr. James. Today any document that is possible to digitize, 
we're digitizing, every new document coming along, and we've 
been doing that for some time. But, of course, we have a lot of 
documents that have been issued over the years, going back to 
1789 and even before that that are considered Federal 
documents, that are available only in paper, and therefore 
they're in just a few locations around the country. Scholars 
have access to those documents but the general public doesn't 
have access to that information. And so we think to have a 
truly usable database of Federal information, that it's going 
to be important to go back and digitize those documents, to 
find them and digitize them. The good news is that we already 
own those documents, we the Government own those documents, and 
they're maintained at Federal depository libraries in 
partnership with the Government. Fifty-three of those 
libraries, called regional depositories, have very extensive 
collections, and we've talked with several of them that would 
be interested in participating with us in this project in 
furnishing those documents back to us.
    We are looking right now at building a new business unit at 
the GPO that we'll call the digital media group, and we're 
setting the standards, we're getting our arms around that 
project right now. And this is going to become a very important 
part of retraining our workforce. We have a lot of people with 
skills in platemaking, printing, and binding that won't be 
needed in the future. Instead, it will be people with digital 
skills, and so what we'll be doing is transforming those jobs 
from the old world into the new world as we establish the 
digital media group.
    We've talked with our customers, and we have roughly 500 
agencies in the Government who are our customers, many of whom 
have requirements to digitize documents. We've discussed with 
them the possibility of building this enterprise of digitizing 
Federal documents in the depository library system, and also 
offering services to other Government agencies, and we've 
received a lot of interest in that.
    Senator Allard. Are you far enough along to have an idea as 
to how long it will take to do this and what the cost might be?
    Mr. James. If we do this smartly, there isn't going to be 
any additional burden of cost, and I say that because we're 
taking people that are already on our payroll that we're 
already paying, and we're going to move them from the job 
they're doing today into this new area. So, it's not going to 
be additional cost. My goal is to have 70 percent of all the 
retrospective documents into a digital system by the end of 
2007. We think that's a realistic and practical goal.

                      TRANSITIONING THE WORKFORCE

    Senator Allard. Okay, now along with this transition that 
you're talking about, going into the digital age, you've 
requested in your budget $5 million that has been defined as 
``transitioning the GPO workforce.'' What will be the impact if 
we're unable to provide this appropriation?
    Mr. James. Well, it would probably cost the jobs of 400 or 
500 Government workers, and we'd probably get back to you, 
talking about the fact that we're going to have to terminate 
those workers, because they wouldn't have the skills that we 
need for the new world. We think this $5 million is a really 
modest investment in taking people who have proven their 
ability to be good employees, and who have been dedicated and 
loyal to the Government, many of them for more than 30 years, 
and give them the benefit of acquiring new skills, and this is 
the right thing to do.

                             SMART PASSPORT

    Senator Allard. Let me move over to your working with the 
State Department on what's been referred to as a ``Smart 
Passport.'' What's the status of that effort, and what impact 
will this activity have on GPO's future?
    Mr. James. As we've looked at the future, it's very clear, 
Mr. Chairman, that security and intelligent documents are going 
to become more and more important to the GPO. It's going to 
comprise a significant portion of our business 5 years down the 
road. The start of it is the putting of an electronic chip and 
antenna into the new U.S. passport.
    We've been at work on this project with our customer, the 
State Department, for nearly 1\1/2\ years. We've been looking 
at the various possibilities, how we're going to do this, how 
this chip is going to be included in the passport. We 
manufactured the very first electronic passport about 3 months 
ago as a test, and my understanding is that the State 
Department is going to be rolling out the electronic passport, 
which we produce, later this summer in an official version--the 
version that you would carry or diplomats would carry--to test 
it. We know what happens with a traditional passport when it 
goes through a washing machine, we know what happens to the old 
passports. What we don't know is what happens with the new 
electronic passport if you leave it in the trunk of your car. 
So, we'd like to get some information, the State Department 
would, before they begin to issue those to general citizens, 
but they expect that early next calendar year they'll be 
rolling out those passports.

                      FEDERAL DEPOSITORY LIBRARIES

    Senator Allard. On the Federal depository library system, 
is the depository library community satisfied with your 
approach, going to the electronic dissemination of information?
    Mr. James. Well, there are thousands of people involved in 
the Federal depository library community. As my opening remarks 
indicated, we have experienced a very disruptive technology. 
It's not only disrupted our lives and your lives, but it 
certainly is having a profound effect on libraries. I think we 
have general concurrence throughout the community of the 
importance of building the digital database of all U.S. 
Government documents from the beginning of time until now, and 
keeping that current. We're 100 percent on the same page.
    Our instructions from the Appropriations Committees over 
the years have been to transform the depository library system 
from a paper system to an electronic delivery system. And we've 
been doing that and today, most of the documents we deliver are 
in electronic form, we no longer print them.
    But there's certainly documents left that we are printing, 
and there are certain communities within the Federal depository 
library system that still have a need for paper documents, and 
we're going to have to find a way to continue to provide those 
paper documents as long as they need them. And every day we 
work on this issue with the depository libraries.

                GOVERNMENT PRINTING OFFICE FIELD OFFICES

    Senator Allard. GPO has 20 field offices for print 
procurement. What is the status of any effort to realign any of 
those offices?
    Mr. James. Mr. Chairman, they are more than just offices 
that purchase printing. As I'm sure you know, the GPO doesn't 
print only in our own plant. Most of the Government's 
requirements are placed into private sector. Last year we sent 
work to 2,568 printers around the country. We buy printing very 
efficiently. Now our regional offices help us in buying 
printing efficiently, and in making certain that printing is 
widely distributed throughout the United States.
    However, they also work with our customers, our customers 
being the agencies of Government, and there are very few people 
who run programs in other Government agencies that have skills 
and knowledge about information, how it's created, how it's 
processed, and how it's used. Today, of course, it's always 
digital as well as printing, so our people have those skills, 
and we work with our agency customers in helping them to 
accomplish their mission.
    Now, whether or not we need 20 offices is the question, and 
we are continuing to examine that and look at whether there is 
a more efficient way of providing a high level of service to 
our customers.

                           INTERNAL CONTROLS

    Senator Allard. One final question, the Inspector General 
has suggested that perhaps there needed to be improvement in 
the contracting processes, particularly on your internal 
controls. His concern was it would help prevent the potential 
for waste, fraud and abuse. What steps are you taking to meet 
those concerns?
    Mr. James. I could not agree more with them. We did not 
have, when I arrived, the proper methods, the proper 
techniques, the proper technology to efficiently and 
effectively manage this contracting. And we've taken very 
aggressive steps to make the investments necessary to get this 
under control, and I can report to you that I completely agree 
with the Inspector General, and we are moving on this as 
promptly as we possibly can.
    Senator Allard. That's all the questions I have, Mr. James, 
and we need to move forward because I think we've got a vote 
scheduled for 11:30.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will perhaps be some other questions from the 
subcommittee and I think perhaps Senator Durbin might have some 
questions from that side of the aisle, and I ask that you could 
respond promptly when you get those questions. Is 10 days a 
reasonable time period?
    Mr. James. Absolutely.
    Senator Allard. We thank you for your testimony, and then 
we'll move on to the next panel. Thank you, Mr. James.
    Mr. James. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
    Question.. Mr. James, what changes does GPO plan on making with 
regard to the production of U. S. passports?
    Answer. In cooperation with the State Department and other Federal 
agencies, a major effort is underway at the GPO that will lead to the 
introduction of an electronic passport in 2005.
    The new electronic passport will enhance the security of millions 
of Americans traveling around the world and facilitate the movement of 
travelers at ports of entry. The electronic passport will contain an 
embedded computer chip that complies with the recommendations of the 
International Civil Aviation Organization (ICAO) and will be consistent 
with the provisions of the Enhanced Border Security and Visa Entry 
Reform Act of 2002. The electronic passport is a significant step 
forward in the utilization of advanced information technology to meet 
the requirements of one of our most important customers, the State 
Department.
    The development and production of the electronic passport will be a 
three-phase project:
  --The GPO will produce test passports using chip solutions provided 
        by commercial vendors that manufacture this technology. The 
        National Institute of Standards and Technology will then test 
        the electronic passports for their ability to meet durability, 
        security, and electronic requirements.
  --Once testing results are completed and the final vendor(s) 
        selected, the State Department will conduct an operational 
        field test, and then begin issuing electronic passports to 
        Federal employees. The current timeline for these activities is 
        in the summer and fall of 2005.
  --The first electronic passports are currently expected to be issued 
        to the general public later this year, with full deployment at 
        all Department of State passport agencies in 2006.
    Question. Where are you considering locating your GPO continuity of 
operations facilities outside of the Washington, DC, area?
    Answer. As provided for in the GPO's Strategic Vision for the 21st 
Century, submitted to Congress in December 2004, we are reviewing 
options to establish an ancillary facility outside of Washington, DC, 
for the production of U.S. passports and other security and intelligent 
documents. In view of the events of September 11, 2001, and the 
subsequent anthrax and ricin attacks on U.S. Capitol buildings, we 
believe it is essential that a geographically separate facility be 
established to produce these essential products in the event that 
current capabilities at the GPO become unavailable.
    We are currently discussing location options and capabilities with 
officials of the State Department. Optimally, this facility would be 
located at the Nevada Test Site, which can provide a maximum level of 
security for these important documents. However, we are prepared to 
work with the State Department and our oversight committees to fully 
review the cost and benefits of alternative location options.
    Question. You have conducted two buyouts since 2003, both of which 
substantially reduced your workforce. Do you have the staffing to 
ensure that GPO is able to carry out its mission successfully?
    Answer. The buyouts we conducted in 2003 and 2004, with the 
approval of the Joint Committee on Printing as required by our 
retirement incentive legislation, reduced our workforce by 
approximately 550 positions, or 20 percent, yielding annual savings of 
about $38 million. The buyouts were conducted at a time when nearly 
half of GPO's workforce was retirement-eligible. Also, many of the 
positions that were reduced came from our publication sales program 
area, which was unable to continue supporting a personnel 
infrastructure of its previous size. With reorganization of our 
functions, over the past year we were able to meet our mission 
requirements while continuing to carry out transformation activities to 
prepare GPO to meet the requirements of the 21st century. We are 
closely monitoring our mission performance and taking all necessary 
actions to manage customer expectations from Congress, Federal 
agencies, and the public.
    Question. Your Strategic Vision document outlines a new 
organization for the GPO. Can you please explain it for us?
    Answer. To better address the many challenges and opportunities 
posed by the 21st century publishing environment, GPO will reconfigure 
its organizational structure around six business lines. These new 
Business Units will be phased in over the next two years in the 
following order:
  --Security and Intelligent Documents.--This line of business will 
        work with Federal agencies to assist in the safe and secure 
        design, production, and distribution of security and 
        intelligent documents, many of which will incorporate 
        electronic and other fraud and counterfeit protection features.
  --Digital Media Services.--This unit will develop and maintain the 
        resources necessary to provide services to Federal agencies and 
        the Federal Depository Library Program (FDLP), to allow them to 
        both add content to GPO's Digital Content Management System, 
        and to withdraw or receive content to produce specific products 
        and services. It will also house GPO's creative capabilities 
        for customers.
  --Customer Services.--This is an existing GPO business unit that will 
        be organized around its customers, with a team of GPO employees 
        assigned to each principal agency customer. Each team will have 
        a manager whose responsibility it is to become an authority on 
        the mission of their customer agency and will be supported by a 
        national account manager whose responsibility it is to develop 
        new business from the agency and to visit the agency's 
        principal locations on a regular basis to consult with program 
        managers.
  --Library Services and Content Management.--This unit will continue 
        to manage the FDLP under the direction of Congress to ensure 
        equitable, secure, convenient, and permanent public access to 
        Government information in tangible and digital forms. It will 
        oversee the development of processes and standards to ensure 
        the timely inclusion of all past, present and future Government 
        publications, whether born digital or created through 
        digitization of print material, into the GPO Digital Content 
        Management System to create a complete FDLP digital information 
        collection that can be authenticated and preserved for future 
        generations.
  --Publication and Information Sales Program.--This unit will develop 
        a capability to fulfill customer orders through other 
        booksellers. GPO will continue to provide subscription services 
        for Government periodical publications that can be fulfilled 
        directly from the printer or its mail house, and that are 
        economically viable. Back copies will be provided by a contract 
        vendor employing on-demand printing technology to back a modest 
        inventory. It will also focus on developing unique collections 
        of digital information, which will be ``pushed'' over the 
        Internet to primarily business customers on a subscription 
        basis.
  --Official Journals of Government.--This business line will continue 
        to meet congressional and agency needs for these types of 
        traditional products while at the same time ensuring the proper 
        coordination of their digital versions with other GPO business 
        operations and meeting GPO's electronic information 
        dissemination mandate.
    Question. Tell us what you see as the future of the Federal 
Depository Library Program.
    Answer. As stated in our Strategic Vision, it is clear that all 
future Government information, including text and graphics, still and 
moving images, and sound, will either be born digital or transformed 
into digital structure for manipulation, storage and delivery to end 
users. It is the convergence of text, still and moving images, and 
sound, into a single electronic content database that will 
revolutionize future communications.
    The Federal Depository Library Program (FDLP) will determine the 
content of GPO's new Digital Content System, set standards for Federal 
documents, authenticate documents, catalog and manage the content, and 
determine the standards for preservation of the content for future 
generations. This will be done in context with the development of our 
proposed the Digital Content Management System.
    The FDLP will also set the standards for digitizing retrospective 
tangible documents, acquire both the tangible documents and digitizing 
services and provide quality assurance for the content. The goal is to 
digitize all retrospective documents that can be authenticated back to 
the Federalist Papers. We expect to complete 70 percent of this task by 
December 2007.
    Our proposed Digital Content Management System is under development 
by GPO's Office of Innovation and New Technology, in collaboration with 
other business units, and is scheduled for full implementation by 
December 2007. The hardware and software associated with the system 
will be managed by GPO's Office of Information Technology and Systems.
    Question. What actions have you taken in fiscal year 2005 to 
provide incentives for depository libraries to remain in the Federal 
Depository Library Program?
    Answer. GPO has been in continuous communication with the 
depository library community about the incentives to remain in the 
FDLP. Many of the incentives suggested by the community have been 
documented in a report available at http://www.access.gpo.gov/su_docs/
fdlp/pubs/proceedings/incentives_progress_
oct2004.pdf. A number of these suggestions have been or are being 
implemented:
  --GPO is launching the first phase of its new integrated library 
        system (ILS) later this month. This system allows GPO to share 
        cataloging information about Government publications with all 
        members of the depository library program and reduces the need 
        for individual libraries to invest local resources to create 
        cataloging information or pay fees to obtain this information 
        from others. The ILS will also allow the GPO to deliver 
        customized information to each of the member libraries based on 
        their individual library profile and generate electronic 
        shipping lists and other useful reports that the libraries have 
        requested.
  --GPO plans to expand its ability to connect citizens who are 
        searching the Internet for Government documents to depository 
        libraries who hold the documents by using the OCLC world 
        catalog of electronic library records, called WorldCat. 
        Currently, this access is available through the GPO Access web 
        site at http://www.gpoaccess.gov/libraries.html and access is 
        based on the current depository library item selections.
  --The GPO staff responsible for FDLP planning recently completed 
        research and prepared a white paper on the special needs and 
        concerns of public libraries as members of the FDLP. This 
        paper, which will be issued later this summer, was prepared in 
        response to concerns voiced in a breakout session for public 
        libraries during the recent Federal Depository Library Council 
        Meeting in Albuquerque, NM. The study helps GPO to understand 
        the issues public libraries currently face, so it can better 
        meet the needs of these FDLP partners. GPO will work through 
        regional depository libraries to develop strategies to support 
        public libraries that participate in the FDLP.
  --Federal agencies are producing over 90 percent of their new 
        publications in electronic format. Many of these publications 
        are posted on agency web sites and never sent to GPO, or 
        elsewhere, for printing. The depository community has asked GPO 
        to takes steps to ensure that this born digital content is 
        captured as part of the FDLP. Harvesting such electronic 
        documents is part of our proposed Digital Content Management 
        System. Additional information about the Digital Content 
        Management System can be found at http://www.gpo.gov/projects/
        fdsys.htm.
  --In accordance with our Strategic Vision, and with the approval of 
        the Joint Committee on Printing, our new Library Services and 
        Content Management business unit will support the Federal 
        depository library community in its efforts to create a 
        reasonable number of comprehensive collections of tangible 
        Government publications in view of changing library resources 
        and technology. GPO will also develop two complete collections, 
        as last resorts, that will store both tangible and digital 
        versions of all publications.
  --GPO is developing an electronic depository library manual in a 
        collaborative effort with volunteers from the depository 
        library community http://www.access.gpo.gov/su_docs/fdlp/pubs/
        im_volunteer_reg.html. This manual consolidates and updates 
        existing policies and allows for best practices and lessons 
        learned to be shared across the FDLP. It is intended to 
        simplify and clarify the instructions, policies and procedures 
        to make it easier to administer the FDLP.
  --At the 2005 Spring Federal Depository Library Council meeting, GPO 
        offered training to support new and experienced depository 
        librarians in learning more about the FDLP. Specifically 
        designed to respond to community requests, GPO offered 
        educational sessions aimed to introduce novice depository 
        librarians to the FDLP. In response to requests from the 
        attendees at these sessions, the educational programs will be 
        repeated at the 2005 Fall Federal Depository Library Conference 
        to ensure this basic training is made widely available to the 
        community.
  --Beginning with the 2003 Spring Federal Depository Library Council 
        meeting, GPO has hosted a series of breakout sessions for the 
        segments of the FDLP community. The breakout sessions are 
        organized by the type of library to make sure that the unique 
        concerns of each type and size of library are identified. These 
        listening sessions are informal gatherings that allow community 
        members to raise concerns and issues confronting their 
        community and library. FDLP members can communicate directly 
        with GPO staff about their particular concerns. A number of GPO 
        staff attend each session and compile lists of community 
        concerns so GPO can develop policies and strategies which 
        present viable solutions to these problems.
  --Beginning in February 1, 2005, GPO added information to the records 
        in OCLC's world catalog of library documents, known as 
        WorldCat. The goal of the project is to allow Government 
        documents in 30 regional depository libraries to be more easily 
        found by citizens. GPO created an automated loading process for 
        OCLC to improve the visibility of documents that may be found 
        in depository libraries. This service will enable citizens to 
        more easily locate Government documents and increase the 
        circulation and interlibrary loans of Government publications. 
        It was discussed in the February 15, 2005 issue of GPO's 
        Federal Depository Library Program newsletter, ``Administrative 
        Notes'', at http://www.access.gpo.gov/su_docs/fdlp/pubs/
        adnotes/ad02_031505.html#8.
  --In 2004, GPO established a special web site called ``Resources for 
        Federal Depository Library Directors''. Because many directors 
        have unique challenges balancing local needs and national 
        responsibilities as depositories, a web site that offers 
        consolidated depository resources was viewed as beneficial to 
        that specific part of the community. The web site home page is 
        linked from the FDLP Desktop, specifically at http://
        www.access.gpo.gov/su_docs/fdlp/directors/index.html.
  --GPO recognizes the contributions individual libraries make to the 
        FDLP by the annual awarding of the Federal Depository Library 
        of the Year. The award, made by the Public Printer, provides 
        special recognition for a depository library that furthers the 
        goals of the FDLP by ensuring that the American public has free 
        access to its Government's information. Criteria for the award 
        includes outstanding public services, such as significant 
        promotion of the Government documents and services in the 
        library and in the community, substantial cooperative efforts 
        with other depository and non-depository libraries to share 
        knowledge and Government information resources with a larger 
        community, access to a well-defined collection of depository 
        tangible and electronic resources to meet the needs of the 
        library's service area; and exceptional care and preservation 
        of the depository collection. Nominations for the 2005 Federal 
        Depository Library of the Year Award can be submitted at http:/
        /www.access.gpo.gov/su_docs/fdlp/fdlofyear/application05.html. 
        Nominations for the award are solicited every summer and the 
        award is presented at the Fall Conference by the Public 
        Printer. The Representatives and Senators who represent the 
        state and district from which the winning library is located 
        are invited to attend the awards ceremony to also recognize the 
        depository.
  --GPO promotes the FDLP and individual libraries in other ways. GPO 
        creates mass marketing literature, CD-ROM's, bookmarks, logos, 
        graphics, posters, and print/radio public service announcements 
        about libraries in the FDLP are received by public radio and 
        newspapers in their local communities. On a daily basis, the 
        support staff at GPO create educational and promotional 
        materials for the FDLP to enhance the visibility of the 
        depository library community and the services they provide.
    Question. Can you update the subcommittee on your efforts to 
relocate the GPO?
    Answer. Since arriving at the GPO a little more than two years ago, 
I have made the future of the GPO's buildings and productive assets my 
highest priority. In view of my longstanding experience in the printing 
and publishing industries, as well as my discussions about the matter 
with officials from the Office of Management and Budget, the General 
Services Administration, and the Office of the Architect of the 
Capitol, it is clear to me that the GPO's current structures are too 
large, too antiquated, and too inefficient to serve our needs or those 
of our customers in Congress, Federal agencies, and the public.
    Other Public Printers over the past half-century reached similar 
conclusions and tried without success to obtain right-sized, modern 
facilities. Over the past generation, as the GPO's workforce has 
declined from a high of nearly 8,500 to about 2,400 today and new 
technology has become available, the problems posed by our current 
structures have only grown more acute. Our buildings now present an 
economic and functional impediment to our future, especially as we move 
to transform this venerable agency into a digital processing facility 
for the 21st century.
    Our central office complex comprises approximately 1.5 million 
square feet of office and industrial space distributed among four 
multistory buildings constructed between 65 and 100 years ago. Other 
than infrequent direct appropriations for large scale building 
projects, the operating, maintenance, and repair (OMR) costs of our 
facilities must be recovered through the prices we charge Congress, 
Federal agencies, and the public for the printing and information 
dissemination work we are required to perform.
    Because of the age and inefficiency of our buildings, the OMR 
component of our prices has become enormously burdensome, today 
totaling approximately $35 million annually, or about 12 percent of our 
costs, without taking into account any capital expenditures for new 
equipment or for the upgrading or replacement of our buildings or their 
systems. These costs will only increase if we stay here. Over the next 
5 to 10 years, we estimate that the GPO will need to spend between $275 
million and $350 million to maintain, repair, and secure our current 
facilities. These are costs that can and should be avoided. Spending at 
this rate will drain our reserves of funds needed for essential 
investment in information technologies and drive the GPO into 
functional obsolescence in the not-too-distant future. I truly believe 
that our historic mission to provide for the information needs of 
Congress, Federal agencies, and the American people is much too 
important to have our future sacrificed to the upkeep of facilities 
that are no longer suited to our needs.
    As a solution, we propose the adoption of an innovative public-
private partnership approach under which we would relocate to a modern, 
in-line facility in the Washington, DC, area that would be equipped 
with technologies appropriate to our current and future mission. 
Instead of taxpayer-supported appropriations, we propose to use the 
value of the GPO's current real estate assets to underwrite this 
project. Under our proposal, we would leverage the aggregate net 
present values of the reduced OMR costs available in a new facility, 
currently estimated at approximately $148 million, and the 
redevelopment value of the GPO's current real estate holdings, 
currently estimated at approximately $236 million, through lease or 
other arrangements with one or more private developers. As a result, 
this approach will have direct impacts that will satisfy the 
requirements of our Strategic Vision for the 21st Century:
  --The proceeds from the transactions will be sufficient to pay all 
        costs associated with the new structure and equipment and 
        moving expenses;
  --The new operating environment will permit us to avoid having to 
        incur OMR costs at the currently wasteful rate, resulting in a 
        savings stream over each year of our occupancy of our new 
        building that will directly lower our future requests from 
        Congress for the Congressional Printing and Binding 
        Appropriation and the Salaries and Expenses Appropriation of 
        the Superintendent of Documents; and
  --A sufficient cash flow will be generated by the lease (or similar) 
        arrangement on our existing site to meet capital requirements 
        for investment in and replenishment of evolving information 
        technologies to support the needs of congressional and agency 
        customers as well as the information dissemination programs 
        covered by the Superintendent of Documents' Salaries and 
        Expenses Appropriation.
    On May 24, 2005, I transmitted a plan to the GPO's oversight 
committees on how these goals can be attained. It was developed by The 
Staubach Company, one of the foremost real estate advisory firms in the 
Nation, selected competitively for this purpose by the GPO with the 
participation and assistance of the General Services Administration and 
the Office of the Architect of the Capitol, and working under a 
contract approved by the Joint Committee on Printing in September 2004. 
At its core, the plan relies on making a strategic, innovative use of 
the ``lazy asset'' that the GPO's current structures have become to 
underwrite our relocation and reduce the future costs of our products 
and services.
    The plan supplements draft legislative language that would 
authorize us to carry out our relocation/redevelopment partnerships, 
which has been supplied to the Senate Rules and Administration 
Committee and the House Administration Committee for review. We are 
preparing to provide our oversight committees with briefings on the 
Staubach plan as well as any additional information they need in their 
consideration of our draft legislative language.
    Question. Are you consulting closely with the all members of the 
depository library community about the new directions for the GPO?
    Answer. GPO has been in continuous communication and consultation 
with the depository library community about our Strategic Vision, 
important planning documents, and various policy statements in numerous 
ways:
  --Regular meetings with the Depository Library Council and a 
        significant population of the FDLP librarians at the Federal 
        Depository Conference/Fall Council Meeting and Spring Council 
        Meeting.
  --Hosting biweekly conference and telephone calls and maintaining 
        routine e-mail communication with the Depository Library 
        Council members throughout the year.
  --Routinely posting important announcements and issue updates to 
        FDLP-L, GPO's broadcast email announcement service http://
        www.access.gpo.gov/su_docs/fdlp/tools/fdlplist.html.
  --Routinely posting proposed policy changes and planning documents to 
        the GPO web sites in order to gather public comments. Postings 
        are typically made to the FDLP Desktop in such places as News 
        and Updates http://www.access.gpo.gov/su_docs/fdlp/. Comments 
        are always solicited through FDLP-L and other discussion lists.
  --Monitoring and responding to postings on the Government documents 
        discussion list and other related Government information 
        discussion lists.
  --Regularly briefing and soliciting input at major professional 
        library conferences (American Library Association, Special 
        Libraries Association, American Association of Law Libraries, 
        Association of College and Research Libraries, various state 
        library association meetings).
  --Regularly briefing and collaborating at special events and on 
        special projects (Federal CIO Council working groups, Library 
        of Congress, Federal Library and Information Center, and the 
        Center for Networked Information).
    Question. Does your Salaries and Expenses request for fiscal year 
2006 ensure that important Government materials will continue to be 
distributed in print, as determined by the depository library 
community?
    Answer. At the level we have requested, and in combination with 
adjustments we are currently making to spending under this account, our 
fiscal year 2006 Salaries and Expenses Appropriation submission will 
cover the distribution of tangible products required by the depository 
library community.
    Question. It is my understanding that GPO is facing a shortfall in 
fiscal year 2005 in the Salaries and Expenses account. What is the 
magnitude of the shortfall and when did GPO first become aware of the 
shortfall? What has GPO done to date to mitigate this shortfall?
    Answer. Earlier this year, following consultation with our 
oversight committees, the Superintendent of Documents issued a 
statement pledging to continue the distribution of tangible products to 
Federal depository libraries consistent with the needs of the 
depository library community. Accordingly, we are making necessary 
adjustments to spending under the Salaries and Expenses Appropriation 
to cover the anticipated volume of tangible product distribution work, 
which at this point in time is projected to require an estimated $2.6 
million more than was originally budgeted for this purpose. As a result 
of these adjustments, staffing changes, and adjustments to overhead 
cost allocations, we project that spending for fiscal year 2005 
Salaries and Expenses requirements will be completely within the amount 
appropriated.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS HOLTZ-EAKIN, DIRECTOR
    Senator Allard. The next panel is the Congressional Budget 
office. Dr. Holtz-Eakin, it's good to see you again.
    Mr. Holtz-Eakin. It's good to see you, sir.
    Senator Allard. I get to hear from you from time to time 
since I serve on the Budget Committee. Proceed with your 
testimony when you're ready.
    Mr. Holtz-Eakin. Mr. Chairman, the CBO's pleased to be here 
today and we do have a written statement which we've submitted 
for the record, I will be brief.
    I want to begin by thanking this subcommittee for its 
support in the past, most recently in our fiscal year 2005 
appropriation and some reprogramming we did with the 2004 
funds, and going forward, we have what we believe is a fairly 
plain, vanilla request. As you noted at the outset, it's a 
request for a bit under $36 million, a rise of $1.2 million 
over last year, or 3.5 percent. The strategy in putting that 
together was to fully fund the personnel costs in the CBO 
budget, that's about 90 percent of our budget. They will rise, 
between paying benefits, a bit over 5 percent per year, and 
we'll hit the top line 3.5 percent rise by cutting back, most 
notably, in IT expenditures where things will fall by another 
19 percent, and a bit in other areas as well.
    We are able to do this by taking advantage of past efforts 
in cost-saving technologies, our budget analysis data system, 
moving that from a mainframe to a server platform, online 
application techniques, extensive use of our website for 
distributing documents to the public instead of printing and 
mailing them out. We also benefit from partnering with other 
congressional agencies. Our new financial management system, in 
partnership with the Library of Congress is in the National 
Finance Center for payroll, so we don't have to use the capital 
for facilities, so we have the ability to do this, and the 
bottom line, of course, is performance. And as we put in our 
written testimony and traditionally included in our budget 
submission operating plans, the CBO is providing the Congress 
good service for this money, and it represents a good buy, 
that's been true in the past, we hope to continue that in the 
future.
    I thank you for the chance to be here today.
    [The statement follows:]
               Prepared Statement of Douglas Holtz-Eakin
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 2006 budget request for the Congressional 
Budget Office (CBO).
    CBO is a small legislative support agency. Its mission is to 
provide the Congress with timely, objective, nonpartisan analyses of 
the budget and the economy and to furnish the information and cost 
estimates required for the Congressional budget process. That mission 
is its single ``program.'' Approximately 90 percent of CBO's 
appropriation is devoted to personnel, and the remaining 10 percent, to 
information technology, equipment, supplies, and other small purchases.
    Appreciating the need for fiscal restraint, CBO has attempted to 
maintain its existing level of personnel by saving money in, and 
through, information technology and through other measures. CBO's 
proposed budget for fiscal year 2006 represents slightly less than a 
``current services'' request, in which the increases from 2005 are 
solely to cover estimated increases in pay, benefits, and general 
inflation. The request totals $35,853,000--a $1.2 million, or 3.5 
percent, increase over the appropriation for fiscal year 2005 (after 
the 0.8 percent rescission).
    The requested increase is dominated by $1.6 million for increases 
in staff salaries and benefits, which are estimated to grow by 5.2 
percent in 2006. CBO's information technology accounts will decrease by 
$354,000, or 19 percent, which has been made possible by an adjustment 
to the replacement cycle for equipment and savings from converting the 
Budget Analysis Data System from a mainframe platform to 21st century 
technology. The remainder of CBO's nonpersonnel budget will decrease by 
1.1 percent. CBO will generate savings in printing, storage, and 
postage costs by increasingly relying on online distribution of its 
publications.
    With the requested funds for 2006, CBO plans to continue to support 
the Congress in exercising its responsibilities for the budget of the 
U.S. government. CBO supports the Congressional budget process by 
providing analyses required by law or requested by the Committees on 
the Budget, the Committees on Appropriations, the Senate Committee on 
Finance, the House Committee on Ways and Means, other committees, and 
individual Members. Contributing in various forms, CBO:
  --Reports on the outlook for the budget and the economy to help the 
        Congress prepare for the legislative year;
  --Analyzes the likely effects of the President's budgetary proposals 
        on federal spending and revenues;
  --Estimates the costs of legislative proposals, including formal cost 
        estimates for all bills reported by committees of the House and 
        Senate and statements about federal mandates on states, 
        localities, and the private sector;
  --Prepares Monthly Budget Reviews, annual reviews of unauthorized 
        appropriations and expiring authorizations, and the biannual 
        volume Budget Options;
  --Conducts policy studies of governmental activities having major 
        economic and budgetary impacts; and
  --Constructs analytic models to project short- and long-term costs 
        and receipts of government programs.
    In fiscal year 2006, CBO's request will allow the agency to build 
on current efforts--specifically, to do the following:
  --Increase the number and reduce the preparation time of reports and 
        in-depth analyses for the Congress. The request will support a 
        workload of approximately 2,000 formal legislative and mandate 
        cost estimates as well as more than 100 analytical reports, 
        about 70 other publications and products, and a robust schedule 
        of Congressional testimony.
  --Support 235 FTEs (full-time-equivalent positions), the same number 
        as in 2005, including an across-the-board pay adjustment of 3.1 
        percent for staff earning a salary of $100,000 or less. That 
        adjustment is consistent with the ones requested by other 
        legislative branch agencies. The budget also reflects a 
        projected increase of 7 percent for benefits, and funds a 
        combination of promotions and merit increases for all staff, 
        including those whose salary exceeds $100,000 and who therefore 
        do not receive an automatic annual increase;
  --Provide for CBO's share of the Federal Accounting Standards 
        Advisory Board's budget ($430,000);
  --Continue support for telecommunications services to the Alternate 
        Computing Facility ($75,000);
  --Maintain and expand CBO's disaster recovery capabilities ($60,000);
  --Maintain and enhance the Budget Analysis Data System, the agency's 
        mission critical system for developing and maintaining 
        scorekeeping data and budget projections for use by the 
        appropriations and budget committees ($20,000); and
  --Sustain and develop CBO's financial management system, Momentum 
        ($100,000).
    Before I close, I would like to point out a few ways in which CBO 
has streamlined some operations, as well as mention cross-servicing 
arrangements and management improvements that CBO has undertaken or 
expanded upon over the past several years.
    First, in terms of streamlining, CBO: Reduced the footprint and 
staff of its library by 50 percent by increasingly relying on the print 
and online services provided by the Library of Congress; and eliminated 
storage services and reduced printing and mailing costs, as the 
agency's Web site has become the primary vehicle for disseminating CBO 
publications.
    Second, pursuing cross servicing, CBO does the following:
  --Coordinates with the Library of Congress for financial management, 
        reporting, travel, and other related financial and accounting 
        services--including using the same contractor that the Library 
        does for audit services. (CBO received a clean opinion on its 
        first audit of its financial statements this year.)
  --Partners with the Library for implementation and maintenance of an 
        integrated financial management and procurement system 
        (Momentum) that provides accurate, relevant, and timely 
        information to management for decisionmaking.
  --Utilizes the National Finance Center for payroll processing.
  --Receives support from the House Information Resources office for 
        CBO's computer data center.
  --Receives maintenance services from the Architect of the Capitol for 
        CBO's work space.
  --Contracts with the Government Printing Office for printing 
        services.
    Last, CBO's management improvements include these:
  --Expanding the use of information technology to develop an improved 
        report production system, an electronic distribution system for 
        publications and cost estimates (relying on the Web), an online 
        job announcement system, an online job application system, a 
        resume tracking system, and a property management inventory 
        system.
  --Discontinuing contracting for mainframe computing services by 
        reprogramming the Budget Analysis Data System to run on CBO-
        maintained servers. That conversion alone will save CBO 
        approximately $200,000 a year in its future budget submissions.
    As reflected in CBO's fiscal year 2006 budget request, those 
ongoing efforts have allowed CBO to keep cost increases to a minimum.
    Finally, I would like to thank the Subcommittee for its support of 
CBO's 2005 budget request. The funding provided this year will allow 
CBO to continue providing the Congress with vital analyses as well as 
enable the agency to make smart investments in core areas, which will 
enhance productivity and reduce costs.

    Senator Allard. Well, thank you. You're accompanied by Dr. 
Robinson at the table. I appreciate the modesty of your budget. 
It's important that CBO set an example. I try to set an example 
in my office, returning unspent dollars, and I'm glad to see 
that you have put together a modest budget here to meet your 
needs.

                         RESOURCE REQUIREMENTS

    Some of the questions that might come up--is it enough? You 
do have some big issues that you're working on--Social 
Security, Medicare, health insurance, prescription drugs--these 
are not easy programs to work with, and do you have the 
resources you need to meet your core mission?
    Mr. Holtz-Eakin. For this submission, we believe we do. 
Further cuts would jeopardize the core mission, because it 
would have to come from pay and personnel--we don't have the 
flexibility to put it somewhere else, and in the end, those are 
the resources that are most central for addressing those 
issues.
    Going forward, I echo your views that we must be cognizant 
of the need for spending discipline. Our ability to replicate 
3.5 percent per year on an ongoing basis is really limited, 
benefits are going up faster than that, and we are 90 percent 
personnel, and we cannot continually go back to the other small 
pieces of our budget and find the savings necessary to keep it 
that low, but for the moment, this submission will do the job.

                           BUDGET FORECASTING

    Senator Allard. Two years ago, CBO requested and received 
two additional staff.
    Mr. Holtz-Eakin. We did, and we thank you, for the support 
there, it helped us to undertake the dynamic scoring of the 
President's budget which was a new initiative when I arrived. 
We, at the moment, believe we have the right FTEs to do the job 
we're being asked.
    Senator Allard. I'm one of the members pushing for dynamic 
scoring.
    What has been your accuracy, your track record for coming 
up with the right figures that over time, proved out? Can you 
show a record of improvement in forecasting?
    Mr. Holtz-Eakin. We believe it's important for the Congress 
to know exactly what they're getting, and we have, on the 
website, and we can provide to you in great detail, the track 
record of our accuracy both in economic forecasting, and most 
importantly, budget forecasting, from the perspective both of 
spending, and revenues. I believe that most people would like 
us to do better, that includes us as well, but we have a track 
record that's comparable to any agency in the Government and 
any company in the private sector that attempts to do this.
    Senator Allard. Well, it's not easy.
    Mr. Holtz-Eakin. I'm glad you said that.
    Senator Allard. It's so unpredictable, and there's no way 
you have of knowing what those incidents might be that might 
have an impact on budget projections.
    Mr. Holtz-Eakin. The most important part of the budget 
projection has traditionally been forecasting receipts, and 
there the central issue is having accurate, up to date 
information about the structure of income tax returns, what--in 
particular--the high income individuals who pay the vast 
majority of individual income taxes are doing, and the fact 
that we receive--as does everyone else--income tax information 
about 2 years after it's actually filed, is one of the real big 
problems. We first have to actually forecast where we are, and 
then make a forecast for the future, and that is the one area 
where we have mentioned to all the departments in the fiscal 
agencies, that getting that data out more quickly would be 
helpful.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. That's all the questions I have. Again, I 
would ask you the same as I did the previous panel, we'd like 
to have a prompt response to any questions we may submit to you 
from this subcommittee. Would 10 days be a reasonable time to 
expect you to be able to get back to us?
    Mr. Holtz-Eakin. That would be fine, we look forward to any 
questions you might have.
    Senator Allard. That's all we have, and thank you very much 
for your testimony, and I think you're doing a good job.
    Mr. Holtz-Eakin. Well, thank you, and I appreciate the 
chance to be here.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                Questions Submitted by Senator J. Durbin
      coordinating efforts with other legislative branch agencies
    Question. How do you coordinate with other Legislative Branch 
agencies including GAO and CRS to ensure that there is not duplication 
in the work that each agency does?
    Answer. There are a number of actions undertaken by CBO and other 
legislative branch agencies to ensure there is not duplication in the 
work that we each do. On a continuing basis, the heads of each agency 
meet to discuss mutual challenges, share experiences, share information 
on key areas of work, and identify opportunities for collaboration as 
well as ensure there is no duplication of work between the agencies. 
Additionally, senior executives from each of our agencies meet through 
various forums to discuss work and collaborative efforts. The Chief 
Administrative Officers (CAO) Council currently is meeting monthly to 
better integrate and collaborate efforts on emergency preparedness and 
continuity of operations planning; the Chief Financial Officers (CFO) 
Council meets at least quarterly to share information on internal 
budget and financial management matters; a Chief Information Officers 
(CIO) Council has just been formed for the legislative branch agency IT 
employees to share information; and, for several years now, 
representatives from GAO, CRS and CBO have been meeting quarterly to 
discuss work efforts and ensure there is appropriate communication 
between the agencies on pending assignments.
    It should also be emphasized that several actions have already 
taken place to coordinate major activities between CBO and other 
legislative branch agencies. For example, we have had a long-standing 
agreement with the Library of Congress for the Library to provide 
support to CBO on a finance and accounting system. Together with the 
Library, we recently completed a transition to a new finance and 
accounting system (Momentum) and the Library and CBO have worked very 
closely together to ensure a successful transition to the new system. 
CBO also shares an IT data center with the House of Representatives, 
and we receive building support from the Architect of the Capitol in 
the Ford House Office Building.
                 elimination of certain staff positions
    Question. CBO reported that it has eliminated the need for certain 
staff positions (e.g., library services, publications) by adopting best 
practices in document distribution and information services. What are 
these best practices and how can other agencies use them to achieve 
savings? What additional opportunities exist across the agency to 
streamline positions?
    Answer. CBO eliminated a position in its library by increasingly 
relying on the print and online services provided by the Library of 
Congress. CBO also eliminated the position of printing assistant and 
transferred the person occupying that position to the agency's IT 
(information technology) group to help meet responsibilities there. The 
change was made possible by decreasing CBO's printing and distribution 
of hard copies of publications and relying even more than in the past 
on e-mail dissemination and the agency's Web site to provide access to 
publications and cost estimates. To bolster that approach, CBO improved 
its new-document notification system by adding an option for 
subscribers to receive instantaneous notification as each document in a 
selected area of interest is released. (Previously, the only option was 
to receive a next-day summary.) Those changes met the need of 
interested parties on the Hill and in the press for quick and reliable 
access (at no marginal cost to CBO). The Agency will continue to review 
library and publication distribution services to identify other areas 
of possible streamlining.
                      document distribution system
    Question. CBO is currently reviewing its document distribution 
system, with an aim toward streamlining. Has CBO undertaken any efforts 
to coordinate the streamlining of document distribution with other 
legislative branch agencies? What actions are being considered and how 
significant are the expected results, including cost savings?
    Answer. CBO contracts with the Government Printing Office (GPO) for 
printing and periodically coordinates with that agency to ensure that 
GPO's distribution of CBO's publications to the depository libraries is 
appropriate. Otherwise, CBO has not coordinated its document 
distribution with other legislative branch agencies, primarily because 
its distribution of hard copies is modest and time-sensitive.
    CBO is printing and mailing fewer publications. First, it has cut 
the numbers generally. It has also eliminated any automatic 
distribution to members of the public. Whereas CBO used to send copies 
of a few of its publications automatically to members of the public who 
expressed a general interest, it now awaits their specific requests. 
Moreover, the agency's reliance on electronic distribution is allowing 
it to dispense with its outside storage facility and, instead, maintain 
a small inventory in its basement storage room in the Ford House Office 
Building. The savings from reduced printing and mailing have not yet 
been realized, so precise figures are not available, but CBO is aiming 
for savings of up to 30 percent, or in the tens of thousands of 
dollars. The recurring annual savings from eliminating the outside 
storage facility is about $20,000.
                        library staff reductions
    Question. CBO reported that in recent years, it has successfully 
reduced the footprint and staff of its library by one-half by 
increasingly relying on the print and on-line services provided by the 
Library of Congress (LOC). What additional opportunities exist to rely 
on the services provided by LOC or other agencies?
    Answer. We believe that opportunities exist to better coordinate 
our needs for journals and books with the Library of Congress and/or 
other agencies' libraries. At CBO, we are increasingly relying on the 
availability of on-line journals, periodicals, subscriptions, etc. 
Either through our own contacts with vendors or through collaborative 
efforts with the Library, we have been able to meet most of our needs 
for journals and periodicals through on-line services. However, we've 
discovered that a number of scholarly and academic books needed by CBO 
employees are not yet available on-line. In these instances, we rely on 
the availability of these publications in the Library, or we purchase 
them directly for CBO. We are currently reviewing how we obtain 
journals and books for CBO employees, and are looking at options for 
agreements with the Library of Congress or other agencies' libraries to 
better meet our needs. Although we have not yet identified specific 
ways to rely on these services of other organizations, we expect that 
our review will help us in this effort.
                  property management inventory system
    Question. CBO reported that it had recently implemented a new 
property management inventory system. How is the new property 
management system being used to strengthen internal control and improve 
the safeguarding of assets? Can you describe the benefits, in both 
qualitative and quantitative terms, what CBO expects from the new 
property management system?
    Answer. The new property management system has strengthened 
internal control and improved the safeguarding of assets by providing a 
documented, standardized process for asset control and the tools 
necessary to track our inventory from cradle to grave. The software 
uses a common database for both Inventory Control and Asset Management 
to eliminate the possibility of equipment appearing in one database but 
not the other. However, for control purposes, employees responsible for 
inventory control do not have access to the asset management interface 
or vice-versa.
    All assets are bar coded and entered into the system upon receipt. 
They are tracked through their life. At disposal, all equipment is 
documented on a property disposal form, cross-checked by individuals in 
different units, and approved for excessing by the Assistant Director 
for Management, Business, and Information Systems. All capital assets 
are inventoried on an annual basis. As an additional safeguard, an 
independent auditor physically sees each piece of capital equipment and 
also verifies its financial data.
    Since CBO is a small agency with less than 5,000 physical assets we 
were able to select a low-cost, off-the-shelf, commercial property 
management system. The total cost for this new system was $17,000. 
Annual maintenance and support is approximately $4,000. If CBO 
developed a custom product in-house or contracted out development, the 
cost would have been ten to twenty times more. The new system is 
significantly easier to use than the prior one, both for inventory 
control and for asset management. This has reduced training costs as 
well as staff time in entering and maintaining asset data. It has 
proven extremely helpful in planning computer and monitor buys and in 
better managing equipment replacement cycles. In the old system, CBO 
largely used spreadsheets and an extremely manual process for asset 
management, particularly depreciation calculations. Since the new 
system combines inventory and asset management in one application, we 
are very near our goal of eliminating separate record keeping and 
reporting for asset management. This will reduce the likelihood of 
errors and result in a substantial time savings.
                   audit of cbo financial statements
    Question. CBO reported that it is working towards an independent 
audit of all CBO financial statements. Only a balance sheet audit was 
performed in fiscal year 2003. What is the expected timeline for having 
an audit of all CBO financial statements? In requesting proposals for 
audit work, what efforts have been made to minimize costs by 
coordinating with other Legislative Branch agencies regarding lessons 
learned from their first audits?
    Answer. CBO is under contract with Kearney and Company (auditing 
firm) to have all fiscal year 2004 financial statements audited by 
August 31, 2005. In order to streamline costs, CBO made a conscious 
decision to contract with the same auditing firm as the Library of 
Congress (LOC), since LOC provides CBO with financial management 
support. Given this fact, CBO was able to incorporate lessons learned 
from LOC's previous audits as well as reduce costs of the contract 
because audit work performed on LOC's financial management processes 
and systems are the same or very similar in nature to that of CBO.
                 automated financial management system
    Question. CBO reported the recent implementation of a new automated 
financial management system ``in cooperation with the Library of 
Congress.'' How is CBO using the new financial management system to 
improve performance and streamline operations? Can you describe the 
benefits, in both qualitative and quantitative terms, which CBO expects 
from the new financial management system?
    Answer. CBO is using its new automated financial management system 
to provide end-to-end acquisition and financial management. This system 
has eliminated redundancies in fiscal and acquisition operations. For 
example, CBO has been able to eliminate manually maintained 
spreadsheets as well as eliminate manual hard copy certification 
functions. These actions have streamlined the coordination processing 
time and reduced the error rate because information is not duplicated 
in various systems. This timesaving will provide acquisition and 
financial managers with more time to analyze and interpret resource 
data in order to further reduce costs though enhanced acquisition 
planning and resource management. Also, this new system will strengthen 
internal management control procedures, since the system is designed to 
provide electronic authentication of system users throughout the 
approval and certification process. The checks and balances maintained 
in this system will ensure clean auditable financial statements. In 
addition, CBO plans to provide management with real-time and near real-
time reporting capability to aid CBO decision makers in making sound 
short and long- term investment decisions.
                          OFFICE OF COMPLIANCE

STATEMENT OF WILLIAM W. THOMPSON, II, EXECUTIVE 
            DIRECTOR
ACCOMPANIED BY SUSAN S. ROBFOGEL, ESQUIRE, CHAIR, BOARD OF DIRECTORS

    Senator Allard. I'm going to call on the next panel now, 
which is the Office of Compliance. Here is Mr. Bill Thompson, 
and you have with you, Chair of the Board, Susan Robfogel.
    Proceed to your testimony when you're ready, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, we're pleased to be 
here this morning, and we both prepared statements that we 
would like submitted for the record.
    I'm going to cut to the chase here because of the time. The 
office has, essentially, three functions, the first of which is 
operating a dispute resolution program that handles everything 
from sexual harassment to disputes about paying overtime. That 
program proceeds very quietly and efficiently; we are not here 
today about any issue with the funding there.
    Secondarily, we're doing education. We're doing a lot with 
a little; we've revamped our website recently, and I think it's 
been considered by people we've talked to as one of the better 
websites they've seen from a regulatory agency.
    The third area that we're responsible for is occupational 
safety, public accommodation and access, and there we are not 
faring so well. As you may recall, about 1 year ago there was a 
report that recommended that we needed additional funds in 
order to be able to satisfy our mandatory requirement of 
complete inspections of the entire campus every 2 years. The 
GAO report also recommended that we change our methodology to 
be more complete in both our inspections and our interactions 
with the agencies which we are inspecting. We have done that, 
and the result of the experience that we've had is that the 
process is much more time consuming than we thought previously.
    At the time we made our initial request for the fiscal year 
2006 budget--which has a 9 percent increase--most of that, 
other than the COLA, was for one full-time position for an 
inspector of Occupational Safety and Health. In the months that 
have passed since then, as we got further into this new 
inspection process, it's become clear to us that we need 
additional funding. As a consequence, we are in the process of 
submitting an amended budget request. With that, I'll turn it 
over to Susan Robfogel.
    [The statement follows:]
             Prepared Statement of William W. Thompson, II
    Thank you Mr. Chairman and Members of the Committee for the 
opportunity to appear before you today in support of the fiscal year 
2006 budget request of the Office of Compliance.
    With me today are Susan S. Robfogel, Esq., Chair of the Board of 
Directors of the Office, General Counsel Peter Ames Eveleth, Deputy 
Executive Director Alma Candelaria, and Administrative and Budget 
Officer Beth Hughes Brown.
    We present you for the second time a completely zero based budget. 
The accuracy of this year's largest budget cost allocation--staff 
time--has significantly improved because we have conducted periodic 
sampling to account for staff time needed to carry out each of our 
major function categories.
    This calendar year also marks the 10th anniversary of the passage 
of the Congressional Accountability Act of 1995. As we end the agency's 
first decade, we can look back at much progress, and some rough patches 
along the way. In February, 2004, the Government Accountability Office 
issued its major Report ``Office of Compliance: Status of Management 
Control Efforts to Improve Effectiveness'' GAO-04-400. At approximately 
the same time, the Office issued its first comprehensive Strategic Plan 
for fiscal years 2004-2006. Both of these documents reflect the 
continuing improvement in the Office's focus on its core missions, and 
its growing engagement with Congress and Legislative Branch agencies in 
collaborative initiatives to enhance our services in the mandated areas 
of dispute resolution, safety and health enforcement, and education and 
outreach to our regulated community.
    As recommended in the 2004 GAO Report, we are continuing to shift 
our focus in providing these services to a more interactive approach, 
enabling regulated employers to achieve greater voluntary compliance 
with the requirements of the Congressional Accountability Act. In light 
of the employment, security and safety challenges Legislative Branch 
agencies and employees face, one of our primary goals is to enable the 
regulated community to achieve substantial compliance with all 
requirements of the Act. And, we are doing all of this with a current 
budget of less than $2.5 million.
                           dispute resolution
    The Office's day-to-day employment dispute resolution function 
involving controversies under ten different laws, everything from 
alleged discrimination to the failure to pay required overtime, 
proceeds efficiently--although largely unnoticed--because of the 
confidential nature of the vast bulk of these cases. Hundreds of 
disputes in nearly all Legislative Branch agencies, as well as in 
offices of Members and committees of both chambers have quietly moved 
through the administrative dispute resolution system. The assistance to 
employing offices and employees provided by this discreet service is 
perhaps one of the great untold success stories of the past decade 
regarding the quality of Congress's internal operations.
                     safety and health enforcement
    However, the current situation regarding the Office's ability to 
carry out the Accountability Act's mandate in the areas of Occupational 
Safety and Health and public accommodation for the disabled is 
substantially more challenging. The Office has successfully encouraged 
major strides by the Office of the Architect and the other responsible 
agencies in improving conditions across the campus. However, GAO's 2004 
Report ``Office of Compliance: Status of Management Control Efforts to 
Improve Effectiveness'' GAO-04-400 confirmed the necessity of the 
Office's repeated budget requests for additional OSH staff and 
resources. GAO found that ``In contrast to most other CAA requirements, 
OOC is not fully in compliance with the CAA requirement that it 
`conduct periodic inspections of all facilities' of the agencies 
covered by the provision.'' GAO also found a ``dramatic increase'' in 
the number of health and safety inspections requested by employing 
offices and covered employees, and observed that the Office's resources 
``have not kept pace with this growth.''
    We have pointed out this structural shortfall in several past 
several budget requests, but we do not have resources at the level 
necessary to enable us to biennially assess the health, safety, and 
emergency response situation across the entire campus in a complete or 
timely manner. Under the Office's current General Counsel, the care and 
quality of our inspections has improved dramatically. However, doing a 
more interactive and thorough job of inspecting requires substantially 
more resources and more time.
    In response to the requirements of the CAA and GAO's 
recommendation, the Office is now in the midst of a definitive effort 
to establish the required authoritative and comprehensive OSH base line 
for all 17 million square feet of covered space in the D.C. metro area. 
Our General Counsel, who was appointed late in fiscal year 2003, has 
determined that the completion of the much more thorough, comprehensive 
and consultative biennial base line inspection mandated by the CAA and 
underscored in GAO's report will be substantially more time consuming 
and resource intensive than we had anticipated even as late as our 
fiscal year 2006 budget request. Even with the additional inspector FTE 
we have requested for fiscal year 2006, the General Counsel will not be 
able to complete a timely, comprehensive picture of the current safety, 
health and emergency response dangers across the entire campus. 
Hazards, some of which may be serious, remain unidentified.
                       educating our constituency
    The Office is also mandated by Congress to ``carry out a program of 
education for Members of Congress and other employing authorities of 
the Legislative Branch of the Federal Government respecting the laws 
made applicable to them and a program to inform individuals of their 
rights under laws made applicable to the Legislative Branch of the 
Federal Government. . . .'' 2 U.S.C. 1381(h)(1). While the Office 
continues to carry out this core mandate of the Act through various 
educational and outreach activities, we have been testing the limits of 
our capacity to become more pro-active in this area. Various additional 
outreach initiatives, such as further upgrading of educational products 
and a planned mediation workshop are occurring this year, but our long 
term ability to build on the momentum expected from these and previous 
enhancements will ultimately be dependent upon additional resources and 
information infrastructure access.
                               conclusion
    On behalf of the Board of Directors the appointees and the entire 
staff of the Office of Compliance, I respectfully request that the 
Committee respond favorably to the Office's fiscal year 2006 budget 
request. We will be happy to respond to any further questions which you 
may have.
                  appendix--the congressional mandate
    The Office of Compliance was established to administer and enforce 
the Congressional Accountability Act of 1995, 2 U.S.C. 1301, et seq. 
The Congressional Accountability Act applies 12 workplace, employment, 
and safety laws to Congress and other agencies and Instrumentalities of 
the Legislative Branch. These laws include: the Occupational Safety and 
Health Act of 1970; the Federal Service Labor Management Relations Act; 
Title VII of the Civil Rights Act of 1964; the Americans with 
Disabilities Act; the Rehabilitation Act of 1970; the Family Medical 
Leave Act; the Fair Labor Standards Act; the Age Discrimination in 
Employment Act; the Worker Adjustment and Retraining Notification Act; 
the Employee Polygraph Protection Act; and veteran's employment and 
reemployment rights at Chapter 43 of Title 38 of the U.S. Code. The Act 
was amended in 1998 to apply the Veterans Employment Opportunities Act.
    Currently, the Office has regulatory responsibility for employers 
in the Legislative Branch employing approximately 30,500 employees. The 
Office is also charged by the Act to make recommendations to Congress 
as to whether additional employment and public services and 
accommodations laws should be made applicable to the employing offices 
within the Legislative Branch.
    Under the direction of the Executive Director, the Office 
administers a dispute resolution system to resolve disputes and 
complaints arising under the Act, and carries out an education and 
training program for the regulated community on the rights and 
responsibilities under the Act.
    The General Counsel has independent investigatory and enforcement 
authority with respect to certain of the laws administered under the 
Act and represents the Office in all judicial proceedings under the 
Act.
                    the board of directors and staff
    The Office has a five-member, non-partisan Board of Directors 
appointed by the Majority and Minority Leaders of both houses of 
Congress. The Board members, who serve five-year terms, come from 
across the United States, and are chosen for their expertise in the 
laws administered under the Act. In a major vote of confidence in the 
current leadership of the Office, Congress enacted legislation in 2004 
granting authority to appoint the current chair and members of the 
Board to a second 5 year term in office. The Board acts as an 
adjudicative body in reviewing appeals by parties aggrieved by 
decisions of Hearing Officers on complaints filed with the Office and 
advises Congress on needed changes and amendments to the Act.
    The Office of Compliance currently has 16 full-time employees and 
pays the part-time Board members on a ``when-actually-employed'' basis. 
Our employee complement performs a multiplicity of functions, 
including: administrative dispute resolution, occupational safety and 
health and disability access enforcement, labor relations regulatory 
activity, education, Congressional relations, professional support for 
the Board of Directors, and general administrative and fiscal 
functions. The Office performs the functions of multiple agencies in 
and for the Executive Branch, including but not limited to, the Equal 
Employment Opportunity Commission, Occupational Safety and Health 
Administration, Occupational Safety and Health Review Commission and 
the Federal Labor Relations Authority. The Office regularly contracts 
for the part-time, as-needed services of approximately 25 other 
individuals as mediators, Hearing Officers, and safety and health 
investigators. The Office's senior full-time safety and health 
investigator is on permanent detail from the Department of Labor's 
Occupational Safety and Health Administration.
                 incomplete biennial osh-ada inspection
    During fiscal year 2004, our Office of the General Counsel (OGC) 
was able to inspect only about 4 million square feet within 25 
Legislative Branch facilities (some with multiple buildings). The 
General Counsel was unable despite best efforts to examine all 
Legislative Branch facilities during the 108th Congress biennial cycle 
of inspections, including large areas within the House and Senate 
Office Buildings and the U.S. Capitol Building space used for Member 
offices, Committee staff offices, and other non-AOC spaces as required 
by the Congressional Accountability Act. Therefore, it is certain that 
many hazards remain unidentified at this time.
    The total amount of covered premises in the metropolitan Washington 
region is in excess of 17 million square feet. Because of the 
comprehensive thoroughness with which the fiscal year 2004 inspections 
were carried out, as was encouraged by GAO's February 2004 Report, over 
2,300 serious hazards were identified in the 25 facilities inspected, 
as compared to 360 violations discovered in the same facilities and 
areas during the 107th Congress biennial inspection.
    As part of the revamped inspection regimen, the Office is now 
utilizing a widely recognized risk assessment code (RAC) to classify 
all hazards found to exist in the ongoing inspections. The time and 
costs required to conduct more interactive and comprehensive 
inspections, and the nearly seven-fold increase in the number of 
violations identified just during 2004 has made manifest that the 
Office's current level of resources are completely inadequate to 
complete the ongoing inspection of all covered facilities in the D.C. 
metro area in the foreseeable future or to timely respond to requests 
for inspections by employing offices and employees.
                   more consultation and collegiality
    GAO also recommended that ``OOC should establish congressional and 
agency protocols . . . between the Congress, legislative branch 
agencies, and OOC on what can be expected as OOC carries out its 
work.'' (GAO Report, Introduction) The Office of Compliance is 
developing new approaches to OSH regulatory activities which involve 
greater consultation, coordination, and transparency in both the 
investigatory and enforcement phases. This effort requires partnerships 
with employing offices and employees and a concomitant educational and 
training initiative to improve management and employee understanding of 
best practices. These activities are focused on fostering more 
cooperative efforts at achieving compliance with standards but they do 
not negate the statutory mandate to enforce the law.
    As we have mentioned, the fiscal year 2004 OSH inspection regimen 
was undertaken with much greater consultation with stakeholders. More 
interactive methods are more resource and labor intensive, and have 
further contributed to the Office's inability timely to complete the 
biennial inspection of the entire campus.
                      strains on agency resources
    During the past two fiscal years, the Office has reallocated 
significant resources toward OSH investigations at the expense of other 
mandates. For example, 0.5 FTE has been temporarily reallocated within 
the Office of General Counsel from legal support to contract 
investigation just to maintain the current level of inspections. In 
addition, one FTE has also been moved from the administrative dispute 
resolution support staff to provide administrative assistance to the 
Office of General Counsel. Contractor funds have been reprogrammed to 
provide additional resources for increasing the use of contracted OSH 
inspectors. Further withdrawal of resources from the other dispute 
resolution and educational mandates of the Act will substantially 
impact the Office's ability to maintain a dispute resolution program 
which ensures that employees and employing offices in the House of 
Representatives, Senate and other Legislative Branch Instrumentalities 
receive the quality of mediation and hearing services which the 
Congress expects.
    Since I was appointed in fiscal year 2002, the Office has 
consistently asked for an additional FTE and other funding for safety 
and health inspections and enforcement, as well as major increases for 
other underfunded mandates. The Office's responsibility in this area 
has assumed even more critical importance in the wake of 9/11. While 
appropriations have increased, the underlying structural shortcomings 
in our funding base make our ability to fully and timely implement the 
Congressional inspection and enforcement mandate impossible. The Office 
has been criticized by appropriators for the size of its requested 
budget increases over the past several years. However, as the Office 
still operates with a smaller budget than it had in fiscal year 1997, 
we respectfully submit that the requested increases have been made in 
large part in order to regain lost resources necessary for this agency 
adequately to respond to the Congressional mandate in the Act.

    Senator Allard. Ms. Robfogel.
    Ms. Robfogel. Mr. Chairman, my purpose in being here today 
is to speak on behalf of the Board, and to let you know that 
the Board fully endorses the request as it's been articulated 
by our Executive Director. Although we are a part-time Board--
we all have other occupations--we take our responsibility for 
health and safety very, very seriously. It's an awesome 
responsibility that we have, and we've spent a great deal of 
time discussing this issue with our executive staff and we are 
fully convinced that every possible dollar has been reallocated 
to the safety and health inspection area that can possible be 
reallocated. That means if we cut expenditures for any other 
part of the Office any more than we already have, the Office 
would not be able to function. And I thought it was important 
that you hear that from us, as well. We think this is the only 
way that we will be able to accomplish the mandate for safety 
that falls to us.
    [The statement follows:]
             Prepared Statement of Susan S. Robfogel, Esq.
    Thank you Mr. Chairman and Members of the Committee for the 
opportunity to appear with Executive Director Thompson before you today 
in support of the fiscal year 2006 budget request of the Office of 
Compliance.
    The Board is acutely aware of its awesome responsibility for the 
health and safety of those who work on or visit the Capitol Hill 
campus.
    To protect the men and women who come to the Capitol, we must have 
enough inspectors to inspect the buildings, help to remediate noted 
deficiencies and reinspect to ensure compliance.
    Currently we are functioning with only one staff inspector who is 
on assignment from the Department of Labor. In addition, we employ 
contract inspectors, as funds permit. Simply put, it is not enough 
manpower to inspect the entire Capitol Hill campus in a two year 
period.
    As a Board, we have questioned our executive staff and we are fully 
satisfied that they are doing everything they can do to support the 
inspection mandate, including reassigning staff and resources from 
other functions to meet the need for inspectors.
    We need more people either through direct hiring or by assigning 
additional inspectors to us from DOL.
    We need your help to keep us all safe.
    We will be happy to respond to any questions which you may have.

    Senator Allard. Thank you very much for your testimony. I 
was one of those that promoted the idea that Congress live 
under the same laws as everybody else, and pushed the idea that 
we needed to get those provisions that traditionally Congress 
has been exempted from, and bring them into the operation of 
our own legislative branch. Then members will gain a greater 
appreciation of the total impact. If you live under the laws 
that you pass, it makes a better person out of you, and I think 
it makes a better legislator out of you. I think that's what 
James Madison had in mind when he got up and talked about a 
citizen legislator, somebody who lived under the laws that they 
passed.

                     HEALTH AND SAFETY INSPECTIONS

    One of the areas that is a little bit troublesome is in the 
health and safety inspection area, you alluded to that in your 
statement. We've got an article here from by The Hill newspaper 
on April 19 of this year, which discussed the hazards of the 
Capitol. It says we had 2,666 citations, and this is much 
higher than what we had in the 2002 inspection. Was that the 
last inspection before you had this inspection?
    Mr. Thompson. That was the last comprehensive inspection. 
The 107th Congress was done in 2002, and this is the same 
square footage that we had in 2004.
    Most of the violations that we had in 2002, a lot of 
progress is being made on. The new violations spread across the 
spectrum of very serious to the not so serious, but the 
inspection experience was that there are still more serious 
violations that we are trying to get after.
    Senator Allard. Now, on these violations, what kind of 
follow up is there? Is the follow up fairly immediate after you 
discovered the violations? How are they abated, and how are we 
doing on correcting health and safety violations?
    Mr. Thompson. Under our new regimen, Mr. Chairman, we make 
every effort to have the agency actually accompany our 
inspectors, so they see what our inspectors see at the same 
time. To the extent that there are clear and simple fixes, we 
actually have had experiences where the changes were made as we 
went.
    For those things that are not being fixed immediately, they 
need to be thought about before we can decide exactly what 
we've got. We follow up as quickly as possible with the agency, 
both orally and in writing, listing the violations and a 
description of what we found.
    With regard to follow up inspections, that's a very 
significant part of what we've been doing since the 2004 
inspection. Our inspectors go out and the agencies' inspectors 
fix the things that they can fix, and we also are having a lot 
of interaction with the agencies.
    Senator Allard. In the 108th Congress, you were not able to 
complete your inspection, is that correct?
    Mr. Thompson. We were not able to complete the inspection, 
I'm sad to say, Senator. For the inspections going forward, 
that is something we are absolutely bound and determined not to 
happen this time around, which is the reason for our increased 
request.
    Senator Allard. Okay, and the additional resources that you 
need to finish and complete your final inspection for this 
Congress is how much?
    Mr. Thompson. We have given your staff two options, the FTE 
option with cost over a 2 year period--fiscal year 2006 and 
fiscal year 2007--approximately $570,000. In the contractor 
version of the same, we use contractors to do the inspection. 
The cost is approximately $475,000, so there's a savings by 
using the contractors.
    Senator Allard. Do you have to bring on new people?
    Mr. Thompson. We have a stable of contractors that we've 
been using, I don't know that we'd be able to use them for that 
many hours, but the community out there has a very good 
selection.

GOVERNMENT ACCOUNTABILITY OFFICE REPORT ON THE STATUS OF MANAGEMENT IN 
                        THE OFFICE OF COMPLIANCE

    Senator Allard. The GAO issued a report and recommendations 
regarding the status of management in your agency. How are you 
doing in responding to their recommendations, and developing 
quantifiable measures to record progress toward goals? I would 
think that it would be easy for you to set goals and objectives 
that are measurable.
    Mr. Thompson. Yes, thank you for asking that question, 
because that's a core effort we're making right now.
    We see the GAO engagement as more than simply oversight. We 
have embraced the GAO as a consultant. They made 15 
recommendations in their report last year. Of those 15 
recommendations, we've been able to accomplish about half thus 
far, and are working on all of them. There are a few that we 
are sort of stymied on with regard to the lack of funds, but I 
can report to you that as late as last month, we met with the 
GAO for two purposes: one, to report to them on how we're doing 
with regard to all of their recommendations, and two, to 
develop with them some preliminary measures, some quantifiable 
measures that we are working on as the first step toward our 
next strategic plan.

                            RISING CASELOAD

    Senator Allard. You had a rising caseload in alternative 
dispute resolutions, is that right and if so, why?
    Mr. Thompson. The caseload at the office is increasing. If 
you correct the figures as the GAO suggested that we do for two 
large files that go back to 2000, there are about 300 people 
involved in the two cases. If you back those numbers out, 
essentially I'm just going to run five numbers here, for each 
step of our process, counseling, mediation, complaints, appeals 
to the Board of Directors, Appeals to the Federal circuit. If 
you take the average over the 10 years we've been in the system 
versus the average over the last few years, what you get is 
numbers like this: 82 for the old average, 88 for the new 
average, 65 versus 73, 9 versus 11, 4 versus 6 and for appeals 
to the Federal circuit, the old average is 2, now we're running 
at 7, so we have a significant increase in the caseload.
    I think the reasons for that--but there's no way to 
scientifically confirm this--our best educated guess is that it 
is a combination of things. One is people knowing more about 
the office, since as time goes by we're doing a much better job 
of educating the community. Number two, I think the workforce 
is becoming more sophisticated in general. And number three, 
frankly, I think there was a period of time when I first got 
here where you would hear stories that, ``Well, that Office of 
Compliance is just for show,'' and I think over time the 
quality of what we've been doing, the quality of the Board's 
decisionmaking have demonstrated our worth.
    Senator Allard. Now, the 200 and 300 complaints that you 
had come in, can you explain in more detail what that was all 
about?
    Mr. Thompson. Yes, there were two large cases, one was a 
group of female cleaning people who were sponsored, I believe, 
if my recollection is correct, by their collective bargaining 
representative, and they were claiming sex discrimination.
    The second group was the Black Capitol Police Officer's 
Association which came into the office about 4 days after I got 
there as the new Executive Director. Their claim was racial 
discrimination through the hiring and promotion of Capitol 
Police, that case is now a case in the Federal court, it's 
still at the trial level, and the Architect's cases were also 
in court.

            CHANGES IN THE CONGRESSIONAL ACCOUNTABILITY ACT

    Senator Allard. Based on your experience, your staff's 
experience, how would you assess the effectiveness of the 
Congressional Accountability Act, and are there any changes to 
the law that you'd recommend to improve its effectiveness?
    Mr. Thompson. I would say the law is quite effective in 
that there is a place for all employees to go with regard to 12 
different statutes. I think we educate people on their rights 
and responsibilities under the laws, and with regard to the 
improvements, the Board of Directors has submitted, as required 
by the statute last year, 2004, a formal report and 
recommendation which includes a number of changes to the Act 
itself and some additional laws. There was inconclusive 
evidence to determine whether other agencies needed that, and 
we will make available that formal report to you and your 
staff.
    Senator Allard. We'd appreciate that. Thank you very much. 
I don't have anything else. Go ahead.
    Ms. Robfogel. Mr. Chairman, there's one other change to our 
statute that our Board has recommended and that was recommended 
in the GAO analysis that I think it's important you be aware 
of. When our statute was passed, it was passed with term 
limits, the Board would be appointed for a single, 5-year term, 
and our executive staff would be appointed for a single 5-year 
term. The GAO has recognized that it is very difficult to 
accomplish continuity, and to accomplish the purposes for which 
the statute is established if the whole office turns over that 
frequently. Congress last year amended the statute to permit 
the Board members to be reappointed for an additional term. We 
are hoping very much that the legislation will be amended to 
also permit the reappointment of the executive staff so that 
all of the work that is currently in process will be able to 
continue.
    Senator Allard. So, we have term limits on the executive 
staff?
    Ms. Robfogel. Currently that is the situation.
    The term limits with respect to the Board have essentially 
been eliminated, at least to the extent of permitting three 
members of the Board whose terms expired to be reappointed, and 
we have been told that the other two members of the Board, 
whose terms will be over in the next month, that they will also 
have their term limits lifted.
    Senator Allard. So, we have staggered terms now for the 
Board members?
    Ms. Robfogel. By just several months, yes.
    Senator Allard. I think we may need to look at that closer, 
we should stagger Board member terms out over several years.
    Ms. Robfogel. That would be a massive improvement, and we 
also think there needs to be some relief on the executive staff 
side.
    Senator Allard. But they serve at your pleasure, you have 
oversight on the executive board, you hire----
    Ms. Robfogel. They serve at my pleasure, actually.
    Senator Allard. As Chairman of the Board.
    Ms. Robfogel. Yes.
    Senator Allard. So, even though they've performed well over 
a certain period of time, you cannot reappoint them?
    Ms. Robfogel. I can not reappoint them, and I can not move 
people from one position in the office to another position in 
the office. Once someone has served on the executive staff, 
he's got to leave at the end of the 5 years.
    Senator Allard. We're going to take a close look at why 
that provision is there, see if we can figure out congressional 
intent, apparently Government Affairs has oversight on that.
    Ms. Robfogel. They do.
    Senator Allard. So, maybe we'll communicate with them a 
little bit and see what their views are on this issue.
    Ms. Robfogel. I would appreciate that, Mr. Chairman.

                         CONCLUSION OF HEARINGS

    Senator Allard. I will now put this subcommittee in recess 
until May 17 when we take testimony regarding the Capitol 
Visitor Center. Thank you for your testimony, this has been a 
good, helpful morning with testimony from all panels, and we 
thank you all.
    [Whereupon, at 11:30 a.m., Wednesday, May 11, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
at 10:30 a.m., Tuesday, May 17.]
</pre></body></html>
